HHS/OIG, Audit -"Review of Pension Costs Claimed by Blue Cross Blue Shield of Tennessee,"(A-07-04-03054)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed by Blue Cross Blue Shield of Tennessee," (A-07-04-03054)
October 4, 2004
Complete
Text of Report is available in PDF format (1.02 mb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the allowability of pension costs
claimed for Medicare reimbursement for Fiscal Years 1994 through 2002.  We
found that Tennessee had claimed $684,551 of unallowable pension costs.  The
overclaim occurred because Tennessee did not correctly identify the Medicare
segment according to the Medicare contract.  Tennessee should revise its
Final Administrative Cost Proposals to eliminate unallowable pension costs
of $684,551.  Tennessee agreed with our recommendation.